Report No. D-2011-066                        June 1, 2011




     Incomplete Contract Files for Southwest Asia Task
    Orders on the Warfighter Field Operations Customer
                    Support Contract
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-9142 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
FOCUS                         Field Operations Customer Support
HMMWV                         High Mobility Multipurpose Wheeled Vehicle
ITAM                          Iraq Training Advisory Mission
MRAP                          Mine Resistant Ambush Protected
PARC                          Principal Assistant Responsible for Contracting
PCO                           Procuring Contracting Officer
PEO STRI                      Program Executive Office for Simulation, Training,
                                and Instrumentation
RTSC                          Raytheon Technical Services Company
SWA                           Southwest Asia
                                  INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704




                                                                              June 1,2011

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Incomplete Contract Files for Southwest Asia Task Orders on the Warfighter
          Field Operations Customer Support Contract (Report No. D-2011-066)

We are providing this report for your information and use. In June 2007, the Army
awarded the Warfighter Field Operations Customer Support contract to Raytheon
Technical Services Company, with a total contract ceiling price of approximately
$11.2 billion. Army contracting officials at the Program Executive Office for Simulation,
Training, and Instrumentation did not maintain complete contract files containing
required documentation to validate contract decisions. We considered comments from
the Acting Deputy Assistant Secretary of the Army for Procurement when preparing the
final report.

The Acting Deputy Assistant Secretary of the Army for Procurement commcnts on the
draft report conformed to the requirements of DoD Directive 7650.3; therefore, no
additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-920 I.




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2011-066 (Project No. D2010-D000AS-0266.000)                         June 1, 2011


               Results in Brief: Incomplete Contract Files
               for Southwest Asia Task Orders on the
               Warfighter Field Operations Customer
               Support Contract

What We Did                                                  •   High Mobility Multipurpose Wheeled
Our audit objective was to determine whether                     Vehicle New Equipment Training-
Army officials adhered to Federal and DoD                        Afghanistan training effort, task order
policies for subcontracting in a contingency                     numbers 022 and 122;
environment while administering the Warfighter               •   Mine Resistant Ambush Protected
Field Operations Customer Support (FOCUS)                        Expedient Armor Program training
contract, valued at approximately $3.7 billion.                  effort, task order number 022; and
This is the first in a series of audits relating to          •   Iraq Training and Advisory Mission
the Warfighter FOCUS contract.                                   training effort, task order number 022.

What We Found                                             What We Recommend
Program Executive Office for Simulation,                  The Principal Assistant Responsible for
Training, and Instrumentation (PEO STRI)                  Contracting (PARC) at PEO STRI should
contracting officials lacked required                     develop and execute written processes and
documentation, such as prenegotiation objective           procedures that require PEO STRI contracting
memoranda and price negotiation memoranda,                personnel to maintain centralized and complete
essential to providing accountability and                 contract files. Additionally, the PARC at PEO
transparency in the Warfighter FOCUS contract             STRI should perform a review of all the
files. PEO STRI contracting officials did not             Warfighter FOCUS contract files to determine
implement internal controls that required                 whether the files are maintained in accordance
procuring contracting officers to maintain a              with Federal Acquisition Regulation
complete history of the contract as a basis for           requirements and correct any deficiencies found
making informed decisions during the                      during the review. Further, the PARC at PEO
acquisition process and did not have internal             STRI should review the performance of
controls that required centralized and integrated         procuring contracting officers and determine if
program and contract files. As a result, we were          administrative actions are warranted.
unable to perform an audit on subcontracting
related to work in a contingency environment              Management Comments and
for this contract. Additionally, we were unable           Our Response
to verify that PEO STRI contracting personnel
                                                          The Acting Deputy Assistant Secretary of the
negotiated a reasonable price for approximately
                                                          Army for Procurement provided comments for
$94.3 million in acquired supplies and services
                                                          each recommendation. The comments provided
supporting the following three training efforts
                                                          were responsive; and therefore, no additional
awarded on task orders 022 and 122 of the
                                                          comments are required. Please see the
Warfighter FOCUS contract:
                                                          recommendations table on the back of this page.




                                                      i
Report No. D-2011-066 (Project No. D2010-D000AS-0266.000)             June 1, 2011

Recommendations Table

         Management                 Recommendations          No Additional Comments
                                   Requiring Comment                   Required
Principal Assistant Responsible                             1, 2, 3, 4
for Contracting at the Program
Executive Office for Simulation,
Training, and Instrumentation




                                          ii
Table of Contents
Introduction                                                   1

      Audit Objective                                          1
      Background                                               1
      Review of Internal Controls at PEO STRI                  2

Finding. Contract Files Missing Required Documents             4

      Criteria for Contract Files                               4
      Contracting File Deficiencies                             5
      Conclusion                                                8
      Management Comments on the Finding and Our Response       9
      Recommendations, Management Comments, and Our Response   10

Appendix. Scope and Methodology                                12

Management Comments

      Assistant Secretary of the Army for Procurement          14
Introduction
Audit Objective
Our audit objective was to determine whether Army officials translated mission
requirements into appropriate contractual instruments and conducted appropriate
oversight of the Warfighter Field Operations Customer Support (FOCUS) contract in
accordance with Federal and DoD policies. Specifically, our audit objective was to
determine whether contracting officials adhered to Federal and DoD policies for
subcontracting in a contingency environment while administering the Warfighter FOCUS
contract. We announced this audit as the first in a series of audits relating to the
Warfighter FOCUS contract. See the Appendix for a discussion of the scope and
methodology.

Background
The U.S. Army Program Executive Office for Simulation, Training, and Instrumentation
(PEO STRI) awarded contract W900KK-07-D-0001, the Warfighter FOCUS contract, on
June 6, 2007, to Raytheon Technical Services Company (RTSC), with a total contract
ceiling price of approximately $11.2 billion.

Contract Requirements
The Warfighter FOCUS contract was awarded to provide operations, maintenance,
systems integration, and engineering support services to the U.S. Army for the following
three types of training:
    • Live Training – training involving real people operating real systems;
    • Virtual Training – training involving real people operating simulation systems;
        and
    • Constructive Training – training involving simulated people operating simulated
        systems.
The Warfighter FOCUS contract required the contractor to provide integrated, life-cycle
support; services for training aids, devices, simulators, and simulations; and training
support worldwide. Specifically, the contractor was required to organize, coordinate, and
control all program activities to ensure compliance with the contract requirements and
timely delivery of required products and services. Additionally, the contractor provided
engineering, materials, services, equipment, personnel, facilities, testing, technical
management, and logistical and clerical support for the training efforts described.

RTSC, as the prime contractor for the Warfighter FOCUS contract, leads a team of more
than 120 subcontractors known as the Warrior Training Alliance. RTSC created the
Warrior Training Alliance to assist in executing all training efforts issued under the
Warfighter FOCUS contract.

Contract Structure
The Warfighter FOCUS contract was structured as an indefinite-delivery, indefinite-
quantity contract that included a 6 month phase-in period, 1 base year, and 9 option years.

                                            1
Contract line items on the Warfighter FOCUS contract were awarded on a firm-fixed
price, time and materials, and cost-plus-fixed-fee basis. PEO STRI contracting personnel
stated that, as of February 2011, the value of the Warfighter FOCUS contract was
approximately $3.7 billion.

The Warfighter FOCUS contract was awarded with a ceiling of approximately
$11.2 billion; however, only approximately $1.2 billion of the contract was for specified
work. PEO STRI contracting personnel stated that the remaining $10 billion was for
unspecified training efforts to be incorporated into task orders through contract
modifications when specific training efforts were identified.

PEO STRI contracting personnel stated that they organized task orders under the
Warfighter FOCUS contract by the functional area that included the specific training
requirements. The Warfighter FOCUS contract supported the following seven PEO STRI
Program Manager Field Operations functional areas:
   • Battle Command Training Systems
   • Combat Training Centers
   • Soldier Non-Systems
   • Soldier Systems
   • Sustainable Range Program
   • Support Mission and
   • Contingency Operations Support

Task orders organized under the Contingency Operations Support functional area
provided support for training being conducted in Southwest Asia (SWA). Task
orders 022, 023, 122, 123, 138, 222, 223, 238, and 242 were awarded to support training
efforts in SWA. PEO STRI contracting personnel stated that after task orders were
awarded, they would issue over and above work requests 1 to RTSC when new training
efforts were identified. RTSC, as the prime contractor, then competed the specific
training effort among its subcontractors and awarded a subcontract for the training effort.
The training effort was then incorporated into a task order through a contract
modification.

Review of Internal Controls at PEO STRI
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses associated with the contract management of the Warfighter FOCUS contract.
PEO STRI contracting officials did not have adequate internal controls that required
maintaining documentation necessary to validate contract decisions essential to providing
accountability and transparency in the Warfighter FOCUS contract files. Specifically,
PEO STRI contracting officials did not require procuring contracting officers (PCOs) to


1
  There may be instances when multiple over and above work requests may be issued to support a single
training effort on the Warfighter FOCUS contract. We will use the term “training effort” in instead of
“over and above work request” throughout this report.
                                                    2
maintain a complete history of the contract as a basis for making informed decisions
during the acquisition process and to maintain centralized and integrated program and
contract files. We will provide a copy of the report to the senior official responsible for
internal controls at PEO STRI and the Department of the Army.




                                              3
Finding. Contract Files Missing Required
Documents
We were unable to perform an audit of subcontracting related to work in a contingency
environment for this contract. Additionally, we were unable to verify that PEO STRI
contracting personnel negotiated a reasonable price for approximately $94.3 million in
acquired supplies and services supporting three training efforts on task orders 022 and
122. Specifically, we were unable to verify that PEO STRI negotiated reasonable prices
for the:
    • High Mobility Multipurpose Wheeled Vehicle (HMMWV) New Equipment
         Training-Afghanistan training effort, valued at approximately $43.2 million.
         Contract files did not contain documentation supporting approximately
         $41.5 million of training services placed on task orders 022 and 122;
    • Mine Resistant Ambush Protected (MRAP) Expedient Armor Program training
         effort, valued at approximately $22.7 million. Contract files did not contain
         documentation supporting approximately $21.8 million of training services placed
         on task order 022; and
    • Iraq Training and Advisory Mission (ITAM) training effort, valued at
         approximately $66.9 million. Contract files did not contain documentation
         supporting approximately $31 million worth of training services placed on task
         order 022.

This occurred because PEO STRI contracting officials lacked required documentation,
such as prenegotiation objective memoranda and price negotiation memoranda, essential
to providing accountability and transparency in the Warfighter FOCUS contract files.
Additionally, PEO STRI contracting officials did not require PCOs to maintain:
    • a complete history of the contract as a basis for making informed decisions during
        the acquisition process, and
    • centralized and integrated program and contract files.

As a result, Army officials did not adhere to Federal and DoD policies for subcontracting
related work in a contingency environment and may not have received fair and
reasonable prices for the Warfighter FOCUS contract. Furthermore, decentralized
contract files could be an indication of questionable contract management and oversight
of the Warfighter FOCUS contract.

Criteria for Contract Files
Federal Acquisition Regulation (FAR) 1.602-2, “Responsibilities,” states that the
contracting officer is responsible for ensuring performance of all necessary actions for
effective contracting, ensuring compliance with the terms of the contract, and
safeguarding the interests of the United States in its contractual relationships.

FAR 4.8, “Government Contract Files,” requires that documentation in contract files be
sufficient to constitute a complete history of the contract transactions as a basis for

                                             4
making informed decisions at each step in the acquisition process, supporting actions
taken, and providing information for reviews and investigations.

FAR 15.406-3, “Documenting the Negotiation,” requires the contracting officer to
document the principal elements of negotiated agreements in the contract file. The
documentation (price negotiation memorandum) includes:
   • the most significant factors or considerations on the establishment of
      prenegotiation objectives and the negotiated agreement,
   • the basis for the profit or fee prenegotiation objective and the profit or fee
      negotiated, and
   • documentation of fair and reasonable pricing.

Defense Federal Acquisition Regulation Supplement 204.8, “Contract Files,” requires
that official contract files consist of original or authenticated copies of contractual
instruments, which contain either a signature of an authorized person or an official seal.
In addition, the contract files shall consist of correspondence, memoranda, and other
documents.

Contracting File Deficiencies
PEO STRI contracting officials lacked required documentation necessary to validate
contract decisions essential to providing accountability and transparency in the
Warfighter FOCUS contract files. Additionally, the PCOs did not maintain historically
complete and centralized contract files for the Warfighter FOCUS contract. PEO STRI
contracting officials did not implement controls that require PCOs to maintain adequate
contract files.

Contract Decisions Not Supported by Documentation
PEO STRI contracting officials were unable to provide support for contracting decisions
for three training efforts due to the lack of documentation in the contract file.
Specifically, we were unable to verify that PEO STRI contracting personnel negotiated a
reasonable price for approximately $94.3 million in supplies and services supporting
three training efforts on task orders 022 and 122.

In September 2010, we informed PEO STRI contracting personnel that the contract files
did not contain essential documentation for the three Warfighter FOCUS training efforts;
including statements of work, proposals, proposal evaluations, and price negotiation
memoranda. During a subsequent site visit in October 2010, the same contract files
remained materially deficient, and PEO STRI personnel were unable to answer questions
pertaining to decisions made during contract administration.

HMMWV Training Effort
PEO STRI contracting personnel awarded the HMMWV new equipment training effort
on the Warfighter FOCUS contract in September 2008 on task order 022. PEO STRI
contracting personnel exercised an option year for the training effort in September 2009
on task order 122. The HMMWV training effort supported the Combined Security
Transition Command – Afghanistan in a new equipment training program for fielding up-
armored HMMWV systems to the Afghan National Army. PEO STRI contracting
                                             5
personnel were unable to provide price negotiation memoranda and prenegotiation
objective memoranda supporting approximately $19.2 million of training services placed
on task order 022 and approximately $22.3 million of training services placed on task
order 122.

Additionally, PEO STRI contracting personnel could not provide a subcontractor price
proposal for the HMMWV training effort on task order 022 or a proposal evaluation for
the HMMWV training effort on task order 122. FAR 15.406-3 requires the contracting
officer to document the principal elements of negotiated agreements in the contract file.

MRAP Training Effort
Contracting personnel at PEO STRI awarded the MRAP Expedient Armor Program
training effort on the Warfighter FOCUS contract in April 2008 on task order 022. The
MRAP Expedient Armor Program training effort was awarded to provide support for the
installation of Government-furnished MRAP Expedient Armor Kits on MRAP vehicle
systems and to provide new equipment training on the maintenance of the kits in the
field. PEO STRI contracting personnel could not provide price negotiation memoranda
and prenegotiation objective memoranda supporting approximately $21.8 million worth
of training services placed on contract for the MRAP expedient armor program training
effort.

ITAM Training Effort
PEO STRI contracting personnel awarded the ITAM training effort on the Warfighter
FOCUS contact in January 2009 on task order 022. Contracting personnel awarded the
ITAM training effort to provide training support to Iraq Army units located throughout
Iraq, including train-the-trainer services for weapons systems training, firing range
support training, and counter-insurgency training. PEO STRI contracting personnel were
unable to provide price negotiation memoranda and prenegotiation objective memoranda
supporting approximately $31 million worth of training services placed on contract for
the ITAM training effort.

Unavailable Contract Documentation
In November 2010, the PEO STRI Principal Assistant Responsible for
Contracting (PARC) confirmed that price negotiation memoranda and prenegotiation
objective memoranda were unavailable for the HMMWV, MRAP, and ITAM training
efforts. The PARC made the following statement in an attachment to an e-mail regarding
the HMMWV training effort:

               After an extensive search of “I” drive, SPS [Standard Procurement
               System], vault contract file, and speaking with the contract specialist,
               neither a POM [Prenegotiation Objective Memorandum] nor PNM
               [Post Negotiation Memorandum] can be located.

Without necessary contract documentation, such as prenegotiation memoranda and price
negotiation memoranda, it is not possible to perform an audit of subcontracting related to
work in a contingency environment for this contract. Consequently, we were unable to
verify whether PEO STRI contracting personnel negotiated a reasonable price for
approximately $94.3 million in acquired supplies and services and whether the
                                                  6
Government paid reasonable profits and fees for the HMMWV, MRAP, and ITAM
training efforts. Contract officers exercising due diligence should have required that
these essential documents were prepared and maintained.

Contract Files Not Centralized
The Warfighter FOCUS contract PCOs did not maintain centralized and integrated
program and contract files. The PCOs maintained minimal or no documentation in the
contract files for quality assurance and oversight reports for the SWA training efforts.
Additionally, PEO STRI program personnel responsible for contract oversight maintained
separate contract files containing documents specific to their duties. For example, PEO
STRI functional area program personnel maintained electronic copies of quality
assurance and oversight reports that could be viewed by PEO STRI contracting
personnel; however, the reports were not incorporated into the central contract file. A
complete, centralized contract file should contain all program and contracting
documentation necessary to support all decisions made during the acquisition process.

PEO STRI contracting personnel could not readily locate basic Warfighter FOCUS
contract documentation. The PCO responsible for SWA task orders on the Warfighter
FOCUS contract stated that independent Government cost estimates should have existed
for training efforts. However, the PCO stated that the audit team would have to obtain
the independent Government cost estimate from the functional area program personnel
responsible for that specific training effort. Additionally, the PCO stated that if she did
not have documents for specific task orders, the audit team would have to obtain the
documents from the original contract specialist 2 for that task order; however, the contract
specialist may no longer work for PEO STRI or be assigned to the Warfighter FOCUS
contract.

For example, in November 2010, after a new PEO STRI contract specialist was assigned
to a new SWA task order, RTSC requested the statement of work for the task order. One
of the contract specialists on the Warfighter FOCUS contract responded to RTSC’s
request by stating:

                  [Name] is taking over TO [task order] 0242. She’s going to love me
                  for this, but I’m going to let her go on the easter egg hunt in our files to
                  find the attachments you’re looking [for].

This example further demonstrated the lack of centralized contract files and raised the
concern as to whether critical contract documentation could be located at PEO STRI.
Furthermore, decentralized contract files could be an indication that contract oversight
was not adequate.

Controls Needed
PEO STRI contracting officials did not implement controls that required the PCOs to
maintain complete, centralized, and integrated contract files. Controls requiring adequate


2
 According to PEO STRI contracting personnel, contract specialists are responsible for performing all
pricing reviews of training efforts, including a full review of RTSC and subcontractor price proposals.

                                                       7
contract file maintenance are essential for the Warfighter FOCUS contract because of the
high turnover of contracting personnel and inexperience of the contracting staff. The
Warfighter FOCUS contract had eight PCOs assigned to the SWA task orders since the
contract was awarded in June 2007. In addition, PEO STRI contracting personnel stated
that PEO STRI employed a large number of interns working as contract specialists that
rotated out of the contracting office every 12 months. The high turnover and the
inexperience of the contracting staff further exacerbated the need for well-maintained
contract files. Inadequate contract files may result in current or future PCOs and contract
specialists having insufficient knowledge about training requirements when negotiating
option years on current task orders or when awarding future task orders. PEO STRI
contracting officials should have implemented effective internal controls that required
centralized, uniform contract files for all task orders on the Warfighter FOCUS contract,
consequently mitigating the effects of contracting personnel turnover and inexperience.

Conclusion
We were unable to perform a comprehensive audit of subcontracting related to work in a
contingency environment for three training efforts on the Warfighter FOCUS contract,
valued at approximately $132.8 million because PEO STRI did not require PCOs to
maintain a complete history of the contract and centralized and integrated program and
contract files. Complete and detailed documentation is essential to all phases of the
acquisition process. FAR 4.801 requires that documentation in contract files be sufficient
to constitute a complete history of the contract transactions as a basis for informed
decisions at each step in the acquisition process. The contracting officer should ensure
that a complete and well-documented contracting file exists for the life of the contract,
including pre-award consideration on requirements, acquisition strategy, pre-award
pricing, the basic contract, and all the modifications or task orders.

PEO STRI contracting officials had a systemic issue of not maintaining complete and
adequate documentation necessary to validate contract decisions for the Warfighter
FOCUS contract files. During March 2009, Defense Procurement and Acquisition Policy
officials conducted a peer review of the Warfighter FOCUS contract, including a review
of several task orders and their supporting documentation. 3 The Defense Procurement
and Acquisition Policy peer review team found no record of price negotiation memoranda
or technical evaluations in the contract file that consistently documented a detailed cost
breakout to support a fair and reasonable price determination by the PCOs. In response
to the Defense Procurement and Acquisition Policy review, PEO STRI personnel
indicated that they had taken steps to improve the contract files. PEO STRI contracting
officials should perform a review of all the Warfighter FOCUS contract files to determine
whether the contract files sufficiently document the contract history and are maintained in
accordance with FAR requirements.



3
 The Director, Defense Procurement and Acquisition Policy, issued a memorandum, “Peer Reviews of
Contracts for Supplies and Services,” September 29, 2008, that stated Defense Procurement and
Acquisition Policy personnel will facilitate post-award Peer Reviews for all service contracts with an
estimated value of $1 billion or more (including options). The post-award Peer Reviews focuses on the
adequacy of competition, an assessment of actual contract performance, and the adequacy of Government
surveillance of contractor performance.
                                                   8
Lack of contract documentation could be an indication of questionable contract
management and oversight for the entire Warfighter FOCUS contract. Improvements in
contract file administration are imperative for the management and oversight of future
task orders for the remaining 7 option years of the Warfighter FOCUS contract.
PEO STRI contracting officials need to immediately implement processes and procedures
that require program and contracting personnel to maintain centralized contracting files
that support all contractual actions taken to provide continuity in future task orders issued
on the Warfighter FOCUS contract. Additionally, PEO STRI contracting officers must
adequately support and document their decisions on negotiated and reasonable prices.
Without the required analyses and supporting documentation, we cannot be certain that
the Government obtained fair and reasonable prices for supplies and services procured.

Management Comments on the Finding and Our
Response
Acting Deputy Assistant Secretary of the Army for Procurement
Comments
The Acting Deputy Assistant Secretary of the Army for Procurement stated that the
Defense Contract Audit Agency will perform an incurred cost audit for the Army of the
Warfighter FOCUS contract and that the Army is reviewing the contractor’s “added
value” effort as defined by FAR 52.215-23. Additionally, the Acting Deputy Assistant
Secretary of the Army for Procurement responded for the PARC at PEO STRI and
acknowledged that there was missing documentation on the Warfighter FOCUS contract
for the base year and first option year of the contract. He stated that PEO STRI personnel
will review and improve PEO STRI contracting policies and procedures to maintain
compliance with regulations. In addition, he explained that the base year of the
Warfighter FOCUS contract was impacted by a shortage of properly trained contracting
personnel and the transitioning of the Warfighter FOCUS contract from the Navy’s
contracting authority to the Army. The Acting Deputy Assistant Secretary of the Army
for Procurement explained that the transition to the Army resulted in the need to integrate
Army and PEO STRI contracting policies and procedures to the Warfighter FOCUS
contract. He also stated that although the workforce of PEO STRI increased since 2007,
more than 30 percent of contracting personnel are interns. The Acting Deputy Assistant
Secretary of the Army for Procurement added that PEO STRI’s workload has increased
150 percent since 2007.

Our Response
We appreciate the comments on the Finding from the Acting Deputy Assistant Secretary
of the Army for Procurement. PEO STRI needs to be especially vigilant in improving
contract files since our audit continued to find the same issues found by the Defense
Procurement and Acquisition Policy peer review.




                                             9
Recommendations, Management Comments, and Our
Response
We recommend that the Principal Assistant Responsible for Contracting at the
Program Executive Office for Simulation, Training, and Instrumentation:

       1. Develop and execute written processes and procedures that require the
Program Executive Office for Simulation, Training, and Instrumentation
contracting personnel to maintain centralized and complete contracting files that
include detailed program and contract documentation essential to all phases of the
acquisition process.

Acting Deputy Assistant Secretary of the Army for Procurement
Comments
The Acting Deputy Assistant Secretary of the Army for Procurement responded for the
PARC at PEO STRI and agreed with our recommendation. He stated that PEO STRI
Contract Instruction 012, “Contract File Management,” provided guidance for
establishing, distributing, and maintaining contract files. He also explained that as a
result of the DoD IG audit, PEO STRI personnel will revisit Contract Instruction 012, as
well as other contract instructions, to ensure compliance with current regulations. The
Acting Deputy Assistant Secretary of the Army for Procurement added that contract files
are located on a PEO STRI web-accessed server that contains electronic copies of
contract modifications, as well as quality assurance and oversight reports. He stated that
PEO STRI implemented a locator system in May 2010 for contract files so contracting
personnel could promptly locate files.

Our Response
The comments from the Acting Deputy Assistant Secretary of the Army for Procurement
are responsive, and no further comments are required.

       2. Perform a review of all the Warfighter Field Operations Customer
Support contract files to determine whether the contract files sufficiently document
the contract history and are maintained in accordance with Federal Acquisition
Regulation requirements.

Acting Deputy Assistant Secretary of the Army for Procurement
Comments
The Acting Deputy Assistant Secretary of the Army for Procurement responded for the
PARC at PEO STRI. He agreed and stated that, beginning in the third quarter of
FY 2011, PEO STRI personnel will conduct internal quarterly self-assessment reviews
that will include a review of all Warfighter FOCUS contract files. He also stated that
these quarterly reviews will continue until a complete review of the contract files has
been conducted, no later than FY 2012.

Our Response
The comments from the Acting Deputy Assistant Secretary of the Army for Procurement
are responsive, and no further comments are required.
                                            10
       3. Correct any contract file deficiencies identified during the review.

Acting Deputy Assistant Secretary of the Army for Procurement
Comments
The Acting Deputy Assistant Secretary of the Army for Procurement responded for the
PARC at PEO STRI. He agreed and stated that, during the quarterly self-assessment
reviews, PEO STRI personnel will correct the contract file deficiencies that they identify.
He also stated that because Defense Federal Acquisition Regulation Supplement 204.802
does not allow for the re-creation of official records, a memorandum for the record will
be added to each contract file in order to document the contract file’s deficiency.

Our Response
The comments from the Acting Deputy Assistant Secretary of the Army for Procurement
are responsive, and no further comments are required.

      4. Review the performance of the procuring contracting officers and
determine whether administration actions are warranted, in light of the
substantially incomplete contract files.

Acting Deputy Assistant Secretary of the Army for Procurement
Comments
The Acting Deputy Assistant Secretary of the Army for Procurement responded for the
PARC at PEO STRI. He agreed and stated that, during the quarterly self-assessment
reviews, PEO STRI personnel will review the performance of individual Warfighter
FOCUS PCOs. He explained that if appropriate, administrative actions will be taken on
the contracting officers who awarded the task orders.

Our Response
The comments from the Acting Deputy Assistant Secretary of the Army for Procurement
are responsive, and no further comments are required.




                                            11
Appendix. Scope and Methodology
We conducted this performance audit from August 2010 through March 2011 in
accordance with generally accepted government auditing standards. Generally accepted
government auditing standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions.

This audit contained scope limitations that impacted the results of the audit. The
contracting files for three of the four training efforts that we planned to review were
materially incomplete and did not illustrate a complete history of the contract as a basis
for making informed decisions during the acquisition process. We met with the
PEO STRI PARC, the PEO STRI Associate Director for Contracting Operations,
PEO STRI PCOs, and other contracting and program officials at PEO STRI and
determined that the missing contract file documentation could not be located.

This is the first in a series of audits on the Warfighter FOCUS contract. We gathered
available Warfighter FOCUS contract documentation covering the period of June 2007
through September 2010. We focused our review to determine whether contracting
officials adhered to Federal and DoD policies for subcontracting related to work in a
contingency environment. We reviewed FAR and Defense Federal Acquisition
Regulation Supplement criteria in our review of the Warfighter FOCUS contract.
Additionally, we conducted site visits and interviewed personnel at the following
locations:
    • Assistant Secretary of the Army, Acquisition, Logistics, and Technology,
        Arlington, Virginia;
    • Program Executive Office for Simulation, Training, and Instrumentation,
        Orlando, Florida;
    • Raytheon Technical Services Company, Orlando, Florida;
    • Defense Contract Audit Agency, Dulles, Virginia; and
    • Defense Contract Management Agency, Dulles, Virginia.

We reviewed the Warfighter FOCUS basic contract and nine tasks orders covering
training performed in SWA from June 2007 through September 2010 to identify potential
training efforts to include in our review. We used a non-statistical sample that focused
our review on high-dollar value training efforts where work was being performed in
SWA contingency environments in order to provide high-dollar impact to the Department
and to align with the DoD IG’s mission in SWA. We then reviewed the contract and
subcontract files for the following training efforts:
    • HMMWV New Equipment Training – Afghanistan training effort, valued at
        approximately $47.6 million;
    • MRAP Expedient Armor Program training effort, valued at approximately
        $22.7 million;



                                             12
   •   ITAM training effort, valued at approximately $66.9 million; and
   •   Afghanistan Counter Improvised Explosive Device/Explosive Ordnance Disposal
       training effort, valued at approximately $54 million.

Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access Web site.
Electronic Document Access is a web-based system that provides secure online access,
storage, and retrieval of contracts and contract modifications to authorized users
throughout the Department of Defense. We used documents retrieved from Electronic
Document Access to review the Warfighter FOCUS basic contract and task orders to
identify potential training efforts to include in our review. As a result of our analysis, we
are confident that the Electronic Document Access Web site was sufficiently reliable for
the purpose of identifying potential Warfighter FOCUS training efforts to include in our
review.

Prior Coverage
No prior coverage has been conducted on the Warfighter FOCUS contract during the last
5 years.




                                             13
Assistant Secretary of the Army for Procurement
Comments




                   Click to add JPEG file




                                  14
Click to add JPEG file




               15
Click to add JPEG file




               16
Click to add JPEG file




               17
Click to add JPEG file




               18
